      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




December 30, 2010

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of New York’s Medicaid Rehabilitative Services Claims Submitted by
               Community Residence Providers (A-02-08-01006)


Attached, for your information, is an advance copy of our final report on rehabilitative services
claims submitted by community residence providers under the New York State Medicaid
program. We will issue this report to New York State within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-01006.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

January 3, 2011

Report Number: A-02-08-01006

Richard F. Daines, M.D.
Commissioner
New York State Department of Health
14th Floor, Corning Tower
Empire State Plaza
Albany, NY 12237

Dear Dr. Daines:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New York’s Medicaid Rehabilitative Services
Claims Submitted by Community Residence Providers. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-08-01006 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie S. Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF NEW YORK’S
 MEDICAID REHABILITATIVE
SERVICES CLAIMS SUBMITTED
 BY COMMUNITY RESIDENCE
        PROVIDERS



                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-02-08-01006
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program.

Section 1905(a)(13) of the Act authorizes optional rehabilitative services, including any medical
or remedial services (provided in a facility, a home, or other setting) recommended by a
physician or other licensed practitioner of the healing arts within the scope of his or her practice
under State law, for the maximum reduction of physical or mental disability and restoration of an
individual to the best possible functional level.

The State elected to include coverage of Medicaid rehabilitation services provided to recipients
residing in community residences—group homes and apartments—under a program
administered by its Office of Mental Health (OMH). Examples of rehabilitative services include
training in and assistance with daily living skills, medication management, and socialization;
substance abuse services; and parenting training.

State regulations governing rehabilitation services claimed by community residence
rehabilitation providers are found at 14 New York Compilation of Codes, Rules, & Regulations
part 593. These regulations require, in part, that: (1) an initial authorization for services must
include a face-to-face assessment of the recipient; (2) the authorization must specify the
maximum duration of services needed by the recipient; (3) the recipient’s service plan must be
reviewed and signed by a qualified mental health staff person; (4) each rehabilitative contact
must be at least 15 minutes in duration; (5) at least four separate reimbursable rehabilitative
services must be provided for a monthly claim or, for a semimonthly claim, at least two separate
reimbursable rehabilitative services must be provided; and (6) reauthorization for services must
be based on a summary of the recipient’s 3-month service plan review or a review of the
complete case record of the recipient.

OBJECTIVE

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
rehabilitation services provided by community residence rehabilitation providers in the State in
accordance with Federal and State requirements.




                                                 i
SUMMARY OF FINDINGS

DOH did not claim Federal Medicaid reimbursement for rehabilitation services submitted by
community residence rehabilitation providers in the State in compliance with Federal and State
requirements. Of the 100 claims in our random sample, 31 claims complied with Federal and
State requirements, but 69 claims did not.

Of the 69 noncompliant claims, 6 contained more than 1 deficiency:

   •   For 61 claims, the physician’s reauthorization for rehabilitation services was not based on
       a review of the recipient’s service plan or case record.

   •   For six claims, the physician’s initial authorization did not include a face-to-face
       assessment of the recipient.

   •   For four claims, each rehabilitation service was not at least 15 minutes in duration.

   •   For two claims, the physician’s authorization did not specify the maximum duration of
       services needed by the recipient.

   •   For two claims, the recipient did not have at least four different reimbursable
       rehabilitative services provided for a monthly claim.

   •   For one claim, the service plan was not reviewed and signed by a qualified mental health
       staff person.

These deficiencies occurred because: (1) most of the physicians were not familiar with
applicable State regulations and program requirements and (2) certain community residence
rehabilitation providers did not comply with State regulations.

Based on our sample results, we estimate that the State improperly claimed $207,569,115 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2007, audit
period.

RECOMMENDATIONS

We recommend that DOH:

   •   refund $207,569,115 to the Federal Government and

   •   work with OMH to implement guidance to physicians regarding State regulations on the
       authorization of community residence rehabilitation services.




                                                 ii
DEPARTMENT OF HEALTH COMMENTS

In its comments on our draft report, DOH disagreed with our first recommendation (financial
disallowance) and agreed with our second recommendation. DOH also disagreed with the legal
basis of our findings and indicated that our findings are based solely on our application of State
regulations.

DOH stated that our interpretation of the State’s regulations was inappropriate, overly technical,
and contrary to the meaning and intent of the regulations.

Further, in its response, DOH stated that, for 58 of the 61 sample claims for which the
authorizing physician did not review the beneficiary’s service plan or case record, the physician
authorized the service “based upon an informed determination of the clinical need.”
Specifically, DOH cited physicians’ responses to our questionnaires for 3 of the 61 sample
claims we found to be in error. For one claim (sample 61), DOH noted that the physician based
his reauthorization on his knowledge of the beneficiary and discussions with the beneficiary’s
case manager. For a second claim (sample 62), DOH noted that the physician indicated that he
saw the beneficiary at least once a month in an outpatient program for medication management.
Further, when signing reauthorizations, the physician indicated that he uses his knowledge of the
beneficiary, the beneficiary’s initial psychiatric evaluation, and communication with staff from
the beneficiary’s community residence rehabilitation services provider. For a third claim
(sample 80), DOH noted that the physician stated that he is very familiar with the beneficiary
and signs reauthorizations for the beneficiary’s community residence rehabilitation services
based on office visits with the beneficiary, his knowledge of the beneficiary, and discussions
with the beneficiary’s case management staff.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State’s comments on our draft report, we maintain that our findings and
recommendations are valid. The State’s comments appear in their entirety as Appendix E.

The plain language of the State’s regulations (repealed after our audit period) provided that a
physician’s reauthorization be based on a review of the beneficiary’s service plan or entire case
record. These requirements addressed two subject areas—medical necessity and coordination of
care—that are not wholly technical.

Regarding the claims for which DOH indicated that the physician authorized the community
residence rehabilitation service “based upon an informed determination of the clinical need,” we
note that, in most cases, the physician was not familiar with the beneficiary in a community
residence setting. For example, for one claim (sample 13), the physician stated that she knew the
beneficiary from a chemical addiction program and was not sure if the beneficiary was even
receiving community residence rehabilitation services. For another claim (sample 6), the
physician stated that he signed an initial authorization without a face-to-face assessment for a
beneficiary whom he had not seen in at least 5 years, when the beneficiary was incarcerated.




                                                iii
Regarding the three sample claims cited in DOH’s response, we maintain that none of the
authorizing physicians reviewed the beneficiary’s service plan or case record before authorizing
community residence rehabilitation services. For the first claim (sample 61), the physician told
us that he did not review the beneficiary’s case record before reauthorizing services. For the
second claim (sample 62), the physician indicated that he did not review any of the community
residence rehabilitation provider’s records—including the beneficiary’s service plan and case
record—before reauthorizing services. For the third claim (sample 80), the physician told us
during an interview that he does not review a summary of the quarterly service plan review, the
actual service plan review, or the complete case record before signing a reauthorization form.




                                               iv
                                                   TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to Community Residence
              Rehabilitation Services ..................................................................................1
            New York State’s Community Residence Rehabilitation Services Program ....2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          PHYSICIANS REAUTHORIZED SERVICES WITHOUT REVIEW OF
          SERVICE PLAN OR CASE RECORD ..................................................................5

          NO FACE-TO-FACE ASSESSMENT ....................................................................5

          SERVICES NOT AT LEAST 15 MINUTES IN DURATION ...............................5

          MAXIMUM DURATION OF SERVICES NOT SPECIFIED ...............................6

          MONTHLY CLAIM NOT SUPPORTED BY REQUIRED NUMBER
           OF SERVICES......................................................................................................6

          SERVICE PLAN NOT REVIEWED AND SIGNED BY A QUALIFIED
           STAFF PERSON ..................................................................................................6

          CAUSES OF UNALLOWABLE CLAIMS ............................................................6
            Physicians Not Familiar With State Regulations ...............................................6
            Community Residence Rehabilitation Providers Did Not Comply With State
              Regulations ...................................................................................................7

          ESTIMATION OF THE UNALLOWABLE AMOUNT ........................................7

          RECOMMENDATIONS .........................................................................................8

          DEPARTMENT OF HEALTH COMMENTS ........................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................8



                                                                      v
APPENDIXES

    A: FEDERAL AND STATE REQUIREMENTS RELATED TO COMMUNITY
        RESIDENCE REHABILITATION SERVICES

    B: SAMPLE DESIGN AND METHODOLOGY

    C: PROTOTYPE OF PHYSICIAN AUTHORIZATION FORM

    D: SAMPLE RESULTS AND ESTIMATES

    E: DEPARTMENT OF HEALTH COMMENTS




                               vi
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims.

Federal and State Requirements Related to Community Residence
Rehabilitation Services

Section 1905(a)(13) of the Act and 42 CFR § 440.130(d) authorize optional rehabilitative
services, including any medical or remedial services (provided in a facility, a home, or other
setting) recommended by a physician or other licensed practitioner of the healing arts within the
scope of his or her practice under State law, for the maximum reduction of physical or mental
disability and restoration of an individual to the best possible functional level.

Title 14, part 593 of the New York Compilation of Codes, Rules, & Regulations (NYCRR)
establishes standards for Medicaid reimbursement of community residence rehabilitation
services, as well as standards for service planning and review that community residence
rehabilitation providers must follow. 1 These regulations state, in part, that: (1) an initial
authorization for services must include a face-to-face assessment of the recipient; (2) the
authorization must specify the maximum duration of services needed by the recipient; (3) the
recipient’s service plan must be reviewed and signed by a qualified mental health staff person;
(4) each rehabilitative contact must be at least 15 minutes in duration; (5) at least four separate
reimbursable rehabilitative services must be provided for a monthly claim or, for a semimonthly
claim, at least two separate reimbursable rehabilitative services must be provided; and
(6) reauthorization for services must be based on a review of a summary of the recipient’s
3-month service plan review or a review of the complete case record of the recipient.

1
  In February 2010, after our audit period, the State’s Office of Mental Health (OMH) revised some of its
requirements for Medicaid reimbursement of community resident rehabilitation services. Among its changes to the
program, the State repealed 14 NYCRR § 593.6(g) and revised 14 NYCRR § 593.4(b) to allow reauthorizations for
services to be signed by a physician, physician assistant, or nurse practitioner in psychiatry.



                                                       1
The State elected to include Medicaid coverage of rehabilitation services provided to recipients
in community residences under a program administered by OMH. 2

New York State’s Community Residence Rehabilitation Services Program

OMH’s community residence rehabilitation services program (the program) provides Medicaid
rehabilitation services to adults with mental illness and children and adolescents with serious
emotional disturbances who reside in State- and non-State-operated community residences, i.e.,
group homes and apartments. Rehabilitation services for these recipients include training and
assistance with daily living skills, medication management, and socialization; substance abuse
services; and parenting training.

Program eligibility is determined by a physician or other licensed practitioner of the healing arts.
Physicians’ authorizations are valid for up to 6 months for recipients in congregate homes (group
homes) and up to 12 months for recipients in apartments. For recipients in community
residences, providers develop service plans, provide services, monitor recipient progress, and
periodically review the status of recipients. Providers maintain records documenting service
authorizations, service plans and reviews, and progress notes. Medicaid reimbursement is based
on monthly or semimonthly rates. 3

Appendix A contains the specific Federal and State requirements related to community residence
rehabilitation services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
rehabilitation services provided by community residence rehabilitation providers in the State in
accordance with Federal and State requirements.

Scope

Our review covered 319,571 rehabilitation services claim lines, totaling $695,556,591
($348,278,906 Federal share), submitted by 137 community residence rehabilitation providers in
the State for the period January 1, 2004, through December 31, 2007. (In this report, we refer to
these lines as “claims.”)



2
 Although the program is administered by OMH, community residence rehabilitation providers submit claims for
payment through the MMIS. DOH then seeks Federal reimbursement for these claims through the Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.
3
 During our audit period, the average monthly rate paid to community residence rehabilitation providers serving
adults was $2,087 and the average monthly rate paid to community residence rehabilitation providers serving
children was $7,084.



                                                        2
During our audit, we did not review the overall internal control structure of DOH, OMH, or the
Medicaid program. Rather, we reviewed only the internal controls that pertained directly to our
objective.

We conducted fieldwork at OMH’s offices in Albany, New York; at the MMIS fiscal agent in
Rensselaer, New York; at 57 community residence rehabilitation providers throughout the State;
and at physician offices throughout the State.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State requirements;

    •    held discussions with OMH officials to gain an understanding of the program;

    •    ran computer programming applications at the MMIS fiscal agent that identified a
         sampling frame of 319,571 rehabilitation services claims, totaling $695,556,591
         ($348,278,906 Federal share), made by 137 community residence rehabilitation
         providers;

    •    selected a simple random sample of 100 claims from the sampling frame of 319,571
         claims, 4 and for these 100 claims, we:

             o reviewed the corresponding community residence rehabilitation provider’s
               supporting documentation,

             o reviewed the professional credentials of the community residence rehabilitation
               provider staff person who reviewed and signed the recipient’s service plan,

             o interviewed community residence rehabilitation provider officials to determine
               the provider’s policies and procedures for obtaining authorizations for
               rehabilitation services, and

             o interviewed the physician, if available, who authorized rehabilitation services to
               determine the physician’s knowledge of program requirements; and

    •    estimated the unallowable Federal Medicaid reimbursement paid in the population of
         319,571 claims.


4
 The 100 sampled claims comprised 83 different authorizing or reauthorizing physicians (i.e., some physicians
authorized or reauthorized two or more claims). For various reasons (e.g., relocation), we were able to interview
only 72 of the 83 physicians (representing 88 claims).



                                                         3
Appendix B contains the details of our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

DOH did not claim Federal Medicaid reimbursement for rehabilitation services submitted by
community residence rehabilitation providers in the State in compliance with Federal and State
requirements. Of the 100 claims in our random sample, 31 claims complied with Federal and
State requirements, but 69 claims did not. Of the 69 claims, 6 contained more than 1 deficiency.
The table below summarizes the deficiencies noted and the number of claims that contained each
type of deficiency.

                                Summary of Deficiencies in Sampled Claims

                                                                             Number of
                           Type of Deficiency                            Unallowable Claims 5
    Physicians reauthorized services without review of service plan
     or case record                                                              61
    No face-to-face assessment                                                    6
    Services not at least 15 minutes in duration                                  4
    Maximum duration of services not specified                                    2
    Monthly claim not supported by required number of services                    2
    Service plan not reviewed and signed by a qualified staff person              1

These deficiencies occurred because: (1) most of the physicians were not familiar with
applicable State regulations and program requirements and (2) certain community residence
rehabilitation providers did not comply with State regulations.

Based on our sample results, we estimate that DOH improperly claimed $207,569,115 in Federal
Medicaid reimbursement during our January 1, 2004, through December 31, 2007, audit period.




5
    The total exceeds 69 because 6 claims contained more than 1 error.



                                                           4
PHYSICIANS REAUTHORIZED SERVICES WITHOUT REVIEW OF SERVICE PLAN
OR CASE RECORD

Pursuant to 14 NYCRR § 593.6(b), the physician’s authorizations must be renewed every 6
months for recipients in congregate residences and every 12 months for recipients in apartments.
A summary of the service plan review prepared immediately preceding the expiration date of the
physician’s authorization, signed by a qualified mental health staff person, must be submitted to
the physician before the physician reauthorizes rehabilitation services for the individual
(14 NYCRR § 593.6(g)). The physician may reauthorize the services based on the summary of
the service plan review or, if necessary, may request the complete case record of the individual.
The service plan review is developed by qualified staff at the program and identifies the
recipient’s service goals and objectives, the services to be provided, proposed time periods, and
efforts to coordinate services with other providers. For 61 of the 100 claims in our sample, the
physician reauthorized the rehabilitation services without reviewing the summary of the service
plan review or the complete case record.

For 45 of the 61 claims, the community residence rehabilitation provider did not submit any
documentation (e.g., service plan reviews, assessments, summaries of service plan reviews) to
the physician who reauthorized rehabilitation services. 6 For the remaining 16 claims, the
community residence rehabilitation providers furnished this documentation; however, the
physicians stated in interviews that they did not review the documentation before reauthorizing
rehabilitation services. 7

NO FACE-TO-FACE ASSESSMENT

Pursuant to 14 NYCRR § 593.6(a)(1), the physician’s initial authorization must “be based upon
appropriate clinical information and assessment of the individual ... [and] must include a face-to-
face assessment” of the recipient. For 6 of the 100 claims in our sample, the assessments on
which physicians had based initial authorizations did not include face-to-face assessments of the
recipients.

SERVICES NOT AT LEAST 15 MINUTES IN DURATION

Pursuant to 14 NYCRR § 593.7(b)(3), reimbursement for the provision of rehabilitation services
for recipients in community residences is based on monthly and semimonthly rates. These rates
are paid based on a minimum number of face-to-face contacts between an eligible resident and a
staff person. Only one face-to-face contact can be counted each day, and it must be at least
15 minutes in duration. For 4 of the 100 claims in our sample, community residence


6
 Community residence provider officials stated they did not provide service plan reviews or case records to
physicians. In interviews, all of the physicians associated with these claims (except seven who could not be located)
confirmed this information.
7
  The physicians indicated that they authorized rehabilitation services based on their knowledge of the recipients
through other programs (e.g., continuing day treatment or clinic) and not based on their review of the recipients’
community residence service plan reviews or case records.



                                                          5
rehabilitation providers could not document that rehabilitation services lasted at least 15
minutes. 8

MAXIMUM DURATION OF SERVICES NOT SPECIFIED

Pursuant to 14 NYCRR § 593.6(a)(2), the physician’s authorization for rehabilitation services
must specify the maximum duration of the authorization to receive the services. For 2 of the 100
claims in our sample, the physicians’ authorizations did not specify the maximum duration of
services needed by the recipients.

MONTHLY CLAIM NOT SUPPORTED BY REQUIRED NUMBER OF SERVICES

Pursuant to 14 NYCRR § 593.7(b)(1), a recipient in a community residence must have been
provided at least four different rehabilitation services for the community residence rehabilitation
provider to be eligible for a monthly claim. For 2 of the 100 claims in our sample, the recipient
had not been provided at least four different reimbursable rehabilitative services for a monthly
claim.

SERVICE PLAN NOT REVIEWED AND SIGNED BY A QUALIFIED STAFF PERSON

Pursuant to 14 NYCRR § 593.6(d), the recipient’s service plan must be reviewed and signed by a
qualified mental health staff person. For 1 of the 100 claims in our sample, the service plan was
not reviewed and signed.

CAUSES OF UNALLOWABLE CLAIMS

We identified two main causes of the unallowable claims: (1) most of the physicians were not
familiar with applicable State regulations 9 and program requirements and (2) certain community
residence rehabilitation providers did not comply with State regulations.

Physicians Not Familiar With State Regulations

Forms used by physicians to authorize rehabilitation services for recipients in community
residences vary slightly throughout the State. 10 However, each form requires the physician to
declare that the authorization or reauthorization for rehabilitation services is based on a review of
the recipient’s assessments and a determination that the recipient would benefit from services
defined in 14 NYCRR § 593. However, 67 of the 72 physicians we interviewed (93 percent)
stated that they were not familiar with these regulations. Most of the physicians stated that they

8
  For the remaining 96 sample claims, community residence rehabilitation providers documented the duration of
rehabilitation services in their records.
9
 In February 2010, subsequent to our audit period, OMH revised its requirements for Medicaid reimbursement of
community resident rehabilitation services. See footnote 1.
10
  Community residence rehabilitation providers generally provide physicians with forms modeled after a DOH
prototype. See Appendix C for the DOH prototype authorization form.



                                                        6
did not practice in a community residence rehabilitation program setting and were familiar with
the recipient for whom they authorized rehabilitation services only through a different program,
such as an outpatient mental health continuing day treatment or clinic program. 11

For 61 of the claims determined to be in error, the physician’s reauthorization for services was
not based on a review of the summary of a recipient’s 3-month service plan review (or the actual
service plan review) or a review of the complete case record, as required. The service plan
identifies the recipient’s service goals and objectives, the services to be provided, proposed time
periods, and efforts to coordinate services with other providers. We interviewed the 46
physicians who signed 54 of the 61 authorizations to determine the basis used for signing the
authorization. 12 All 46 stated that they signed authorizations based on their general knowledge
of the recipient from other programs the recipient attended and not their own knowledge of the
community residence rehabilitation services program. Two physicians stated that they believed
the authorizations they signed were for recipients’ participation in a continuing day treatment
program—not the community residence rehabilitation services program.

Community Residence Rehabilitation Providers Did Not Comply With State Regulations

Contrary to State regulations, 30 of the community residence rehabilitation providers associated
with 45 of the 61 sample claims determined to be in error did not provide any documentation to
the recipient’s physician for use in determining the reauthorization of rehabilitation services. In
addition, some providers did not ensure that physicians performed face-to-face assessments of
recipients before authorizing rehabilitative services. Finally, other providers did not comply with
State regulations concerning the length and number of rehabilitative services required for
Medicaid reimbursement.

ESTIMATION OF THE UNALLOWABLE AMOUNT

Of the 100 community residence rehabilitation services claims sampled, 69 were not made in
accordance with Federal and State requirements. Based on our sample results, we estimate that
the State improperly claimed $207,569,115 in Federal Medicaid reimbursement during our
January 1, 2004, through December 31, 2007, audit period. The details of our sample results and
estimates are shown in Appendix D.




11
  Most beneficiaries who reside in community residences attend outpatient mental health continuing day treatment
or clinic treatment programs during the day. The providers who operate these outpatient mental health programs are
also eligible for Medicaid reimbursement for their services. Generally, community residence rehabilitation services
programs do not have a physician on staff or under contract. Therefore, they usually send reauthorizations for
rehabilitation services to the physicians at the day treatment or clinic programs.
12
  We did not interview the physicians who authorized services for 7 of the 61 unallowable claims because the
physicians could not be located. However, provider officials stated they did not provide the service plan or case
record to the physicians for these seven claims.


                                                         7
RECOMMENDATIONS

We recommend that DOH:

   •   refund $207,569,115 to the Federal Government and

   •   work with OMH to implement guidance to physicians regarding State regulations on the
       authorization of community residence rehabilitation services.

DEPARTMENT OF HEALTH COMMENTS

In its comments on our draft report, DOH disagreed with our first recommendation (financial
disallowance) and agreed with our second recommendation. DOH also disagreed with the legal
basis of our findings and indicated that our findings are based solely on our application of State
regulations.

DOH stated that our interpretation of the State’s regulations was inappropriate, overly technical,
and contrary to the meaning and intent of the regulations.

Further, DOH stated that, for 58 of the 61 sample claims for which the authorizing physician did
not review the beneficiary’s service plan or case record, the physician authorized the service
“based upon an informed determination of the clinical need.” Specifically, DOH cited
physicians’ responses to our questionnaires for 3 of the 61 sample claims we found to be in error.
For one claim (sample 61), DOH noted that the physician based his reauthorization on his
knowledge of the beneficiary and discussions with the beneficiary’s case manager. For a second
claim (sample 62), DOH noted that the physician indicated that he saw the beneficiary at least
once a month in an outpatient program for medication management. Further, when signing
reauthorizations, the physician indicated that he uses his knowledge of the beneficiary, the
beneficiary’s initial psychiatric evaluation, and communication with staff from the beneficiary’s
community residence rehabilitation services provider. For a third claim (sample 80), DOH noted
that the physician stated that he is very familiar with the beneficiary and signs reauthorizations
for the beneficiary’s community residence rehabilitation services based on office visits with the
beneficiary, his knowledge of the beneficiary, and discussions with the beneficiary’s case
management staff.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State’s comments on our draft report, we maintain that our findings and
recommendations are valid. The State’s comments appear in their entirety as Appendix E.

The plain language of the State’s regulations (repealed after our audit period) provided that a
physician’s reauthorization be based on a review of the beneficiary’s service plan or entire case
record. These requirements addressed two subject areas—medical necessity and coordination of
care—that are not wholly technical.




                                                 8
Regarding the claims for which DOH indicated that the physician authorized the community
residence rehabilitation service “based upon an informed determination of the clinical need,” we
note that, in most cases, the physician was not familiar with the beneficiary in a community
residence setting. For example, for one claim (sample 13), the physician stated that she knew the
beneficiary from a chemical addiction program and was not sure if the beneficiary was even
receiving community residence rehabilitation services. For another claim (sample 6), the
physician stated that he signed an initial authorization without a face-to-face assessment for a
beneficiary whom he had not seen in at least 5 years, when the beneficiary was incarcerated.

Regarding the three sample claims cited in DOH’s response, we maintain that none of the
authorizing physicians reviewed the beneficiary’s service plan or case record before authorizing
community residence rehabilitation services. For the first claim (sample 61), the physician told
us that he did not review the beneficiary’s case record before reauthorizing services. 13 For the
second claim (sample 62), the physician indicated that he did not review any of the community
residence rehabilitation provider’s records—including the beneficiary’s service plan and case
record—before reauthorizing services. For the third claim (sample 80), the physician told us
during an interview that he does not review a summary of the quarterly service plan review, the
actual service plan review, or the complete case record before signing a reauthorization form.




13
  In addition, the beneficiary’s community residence rehabilitation provider did not send the physician any clinical
documentation. Rather, the provider only sent the physician an authorization form.


                                                          9
APPENDIXES
                                                                                        Page 1 of 2


       APPENDIX A: FEDERAL AND STATE REQUIREMENTS RELATED TO
           COMMUNITY RESIDENCE REHABILITATION SERVICES

•   Section 1902(a)(27) of the Social Security Act specifies that a “State plan for medical
    assistance must—… provide for agreements with every person or institution providing
    services under the State plan under which such person or institution agrees (A) to keep such
    records as are necessary fully to disclose the extent of the services provided to individuals
    receiving assistance under the State plan, and (B) to furnish the State agency or the Secretary
    with such information, regarding any payments claimed by such person or institution for
    providing services under the State plan, as the State agency or the Secretary may from time
    to time request.”

•   Section 1905(a)(13) of the Social Security Act authorizes optional “... ‘rehabilitative
    services,’ including any medical or remedial services (provided in a facility, a home, or other
    setting) recommended by a physician or other licensed practitioner of the healing arts within
    the scope of their practice under State law, for the maximum reduction of physical or mental
    disability and restoration of an individual to the best possible functional level.”

•   Rehabilitative services, as defined in the Federal regulations (42 CFR § 440.130(d)), “include
    any medical or remedial services recommended by a physician or other licensed practitioner
    of the healing arts, within the scope of his practice under State law, for maximum reduction
    of physical or mental disability and restoration of a recipient to his best possible functional
    level.”

•   Office of Management and Budget Circular A-87 establishes principles and standards for
    determining allowable costs incurred by State and local governments under Federal awards.
    Section C.1.c. of Attachment A of Circular A-87 says that to be allowable, costs must be
    authorized or not prohibited by State or local laws or regulations.

•   At the service plan review immediately preceding the expiration date of the physician’s
    authorization, a summary of the review, signed by the Qualified Mental Health Staff person,
    must be submitted to the physician to obtain a new authorization of rehabilitation services for
    the individual. The physician may authorize the services based on the summary of the
    3-month review or, if necessary, may request the complete case record of the individual
    (14 New York Compilation of Codes, Rules, & Regulations (NYCRR) § 593.6(g)).

•   The initial authorization for services must include a face-to-face assessment of the recipient
    (14 NYCRR § 593.6(a)(1)).

•   Only one contact can be counted each day and the contact must be at least 15 minutes in
    duration (14 NYCRR § 593.7(b)(3)).

•   A contact takes place when an eligible resident of a program and a staff person of an
    approved provider of community residence rehabilitation services have face-to-face contact
    (14 NYCRR § 593.7(b)).
                                                                                      Page 2 of 2


•   The physician’s authorization must specify the maximum duration of the authorization to
    receive services (14 NYCRR § 593.6(a)(2)).

•   A recipient must have been provided at least four different community rehabilitative services
    (at least four separate face-to-face contacts) for a monthly claim or at least two different
    community rehabilitation services (at least two separate face-to-face contacts) for a
    semimonthly claim (14 NYCRR § 593.7(b)(1) & (2)).

•   The service plan must be reviewed and signed by a Qualified Mental Health Staff person
    (14 NYCRR § 593.6(d)).
                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was community residence rehabilitation services claim lines (claims) submitted
by 137 providers in the State during our January 1, 2004, through December 31, 2007, audit
period that were claimed for Federal Medicaid reimbursement by the New York State
Department of Health.

SAMPLING FRAME

The sampling frame was a computer file containing 319,571 detailed paid claims for community
residence rehabilitation services submitted by 137 providers in the State during our audit period.
The total Medicaid reimbursement for the 319,571 claims was $695,556,591 ($348,278,906
Federal share). The Medicaid claims were extracted from the claims’ files maintained at the
Medicaid Management Information System fiscal agent.

SAMPLING UNIT

The sampling unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the 319,571 detailed claims. After generating 100 random numbers,
we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
            APPENDIX C: PROTOTYPE OF PHYSICIAN AUTHORIZATION FORM 





                                                    ADTHOaIZATION 'rOR
                                               · a£STORATlVE StaVIGES    or
                                                 COMMUNITY .lZs JDtNC[s



                                                                              o   Inltlal Authorl".tlon

                                                                              o   S.... i-Ann ...... -l Authorlu.tlon

                                                                              o   Annual A<1thorh:aClon



 CLIutt·S 1UHl::

 Ct.I!:NT'S   K!Jl~CA..In NOtm9.:

 len.;    D~ISl '             __-"CC____________-C-C______- '__________________' -______________




 jlr"....."!o'" of ....ntal hClllth .:'",.to-.;0."1...,, ,.erYl.."s defl"",4 pur:SWlnt. to   ran   59] of 14 KTQUl,


 'thh d6"erw.lna"lo", h           i.Q "ifect 1'or the perIod __~______~_______ '0 ~_______________



at vb.lch ·U .. .. th""" vUl b. an "'Valuation for contlnued. sta,..



      I       I
. Mo. 	 Day       Yr, '   ,                                                                        Ltc.'IIs",,,,, •




                                                  SIgnature




 o	       Ched:: 'he!;.. 1.f 1:11....n: 1.0; enrolled Uo '· Kan.&ged Care. ("-S., ...... 1IlfO or Katu:ged Care
          Coordt.n...tor iragr....) and inter pr1.m..&ry cara ' phy%lci.o.n .;...... and .......'"d car. prO'O"Ue"
          1ds-utJ..f"le.o.t101l ........ber.                    .
            APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                           Sample Details and Results
                                                                         Value of
              Value of                                                  Unallowable
                                         Value of
               Frame                                                      Claims
Claims in                   Sample        Sample        Unallowable
              (Federal                                                   (Federal
 Frame                       Size     (Federal Share)     Claims
               Share)                                                     Share)
319,571     $348,278,906      100        $111,134            69           $77,355


                          Estimated Unallowable Costs
             (Limits Calculated for a 90-Percent Confidence Interval)

                    Point Estimate                  $247,204,499
                    Lower Limit                     $207,569,115
                    Upper Limit                     $286,839,882
                                                                                                              Page 1 of7


           APPENDIX E: DEPARTMENT OF HEALTH COMMENTS 



                         STATE OF NEW YORK
                         DEPARTMENT OF HEALTH
                         Corning Tower The Governor Nelson A. Rockefeller Empire State Plaza AJbany. New Yorn 12237


Richard F Dames. M.D                                                            James W. CI~ne, Jr
Commissioner                                                                    bfJCulivfJ Deputy Commissioner



                                                           August 23, 20 I0

    James P. Eden
    Rcgionallnspcctor Genera! for Audit Services
    Department of Health and Human Services
    Region [J
    Jacob lavitz Federal Building
    26 Federal !'l:l.I.a
    New York, New York \0278

                                                           Ref. No. 1\-02-08-01006
    Dear Mr. Eder!:

           Enclosed arc Ihe New York State DC])artmcnt of Health's comments on the Department
    of Health and [Juman Services, Office of Inspector General's draft audit report A-02-08-Q I006
    on "Review o r New York's Medicaid Rehabilitative Serv ices Claims Submitted by Community
    Residence Providers:'

           Thank yuu for the opportunit y to comment.

                                                           Sincerely.


                                                         <::rJ'r'~ 

                                                           James W. Clyne, Jr.
                                                           E:-:ecutive D<::pUlY Commissioner
    Enclosure

   cc: 	   Robert W. Reed
           DOlUl<l Frcscalorc
           Jamcs Shct::han
           Michael F. Hogan, Ph.D.
           Diane Christensen
           Dennis Wendell
           Stephen Abbott
           Jumes Russu
           Irene Myron
           Ronald farrell
           Mary Elwell
           Lynn Oliver
                                                                                                           Page 2 of7




               New York State Department of Health ' s 

                          Comments on the 

             Department of Hcallh and Human SCI"vices 

                    Office of Inspector Ge neral's 

                Drart Audit l~cJlort A-02-08-010 06 on 

   " Review of New York's Medicaid Rehabilitative Services Claims 

           Submitted by Co mmunity Residence Providers" 



The following arc the New York Stale Department of Health's (l)cpartmcnt) comments in
response to thl;; Department of !Icalth and Human Services, Office of Inspector General's (010)
draft audit report A-02-08-01006 on '·Review orNew York 's Medicaid Rehabilitatjve Services
Clltims Submi(l{''([ by Community I{csidcnce Providers:'

Rcco llllllcnd:llion #1:

The Slole should refund $207,569, 11510 the Fedcr.ll Govemmcnt.

Response # I:

The Department and the New York Slale cmcc afMental Health (OM I'I) strongly disagree with
the recommendation for the State to rerund 5207,569,11510 the Federal government on the basis
that DIG's underlying auditmcthodology is flawcd. Further. the New York St:lle Office of the
Medir;;aid Jnsl>cclor General (OM [G) has !.:Oncerns with the standards and met hodology applied
du ring the DIG rc\'iew. The OM IG has conducted similar rehabilitation service audi ts ofOMl-i
providers, a nd as part of these audits, hllg considered additional documentation seemingly not
considered by the O[G in the audit at hand. [n the OM1G's opinion, the ~IG's consideration of
this add itional documentation would not only be consistent with or.. ll G's approach but would
also be a more accurate reflection of provider compli:mce wi th thc billing req uirements. This
could also have a significant impact on potential findings. The OMIG is requesting a mccting
with thc D IG to discuss both agencies' audit approaches and the possible impact on the DIG's
findings and recommendatiuns.

The New York State Community Residence Rehabilitation Program provides vital rehabilitative
services to individuals who are seriously impaired as u result of mentnJ illness. OIG conducted
this audit of the program and recommends a punitive disa[]owancc of $207.569, I [5 based upon
tindings of a[]eged technical violations of New York State program regulations. This
recommendation results from O[G's review ora sampk of 100 claims out ofa universe of
3 19,571 claims. and is made dcspite the fact that there is no finding or allegation thatthCl 5I:TviCles
provided were not medically-necessary, were no[ in fact provided OT were provided 10
individuals who were not Medicaid-eligible. Indecd, preliminary State analyscs of the DIG lludit
wurkpapers reveals that the auditors were, in fact , aware Ihat the services in question were
provided, documented and medically-necessary, and that they werCl indeCld authorized or
TCauthori7.cd by a physician.
                                                                                                      Page 3 of7




                                                 2
The OIG 's recommended disallowance is not based upon any alleged violations of Federal
Medicaid laws, rules or regulations. Rather, the recommendation is based solely upon alle ged
violations of New York Stale program regulations. lbe 010 auditors, however, never consulted
with either OMH or Dcpanmcnt Medicaid officials in interpreting these regulations. This flawed
auditing practice resulted in an 010 interpretation that is al odds with the way in which the State
interprets and enforces these provisions. Further, the audito rs were selective in their reliance
upon these regulations. While they chose to enforce certain requirements. they also chose to
ignore the enforcement provisions contained therein. The result is that the OIG has
recommended a disallowance of a magnitude that threatcns the viability of the State's entire
program for providing much-needed services to a seriously <;Iisab!ed population, for Alleged
infractions having nothing to do with the quality or appropriateness of care, recipient eligibility
or provider fraud or abuse.

Although DIG 's stated audit objective was to detennine whether the State claimed Medicaid
reimbursement for rehabilitation services in accordance with Federal and State requiremeh ts,
each of the findings and the recommended disallowance are based solely upon 0I0's application
of the New York State regulations. Accordingly, the report and recommendations should not be
afforded the deference ordinarily given to agencies when interpreting and enforcing their own
regulations. Rather, deference should be given to the State in interpreting, applying and
enforcing its o\'m regulations.

The 010 audit is seriously flawed in a number of respects:

    f. 	 lbe auditors ignored the appropriateness of remedies other than disallowance for alleged
         regulatory violations. ora has taken the position that any violation of State program
       regulations, regardless of whether substantive or technical, rende rs the services provided
       non-reimbursable. lbis approach ignores the variety of regulatory enforcement
       mechanisms utilized by the State, and called for in the regulation in question, including
       requiring providers to submit correctivc action plans, increasing the frequency of
       program inspections, and ultimately the imposition of fines, or license limitation or
       revocation.

   11. 	 DIG applied an inappropriate and overly technical interpretation of New York State's
         program'regulations thaLis contrary to the meaning and intent of those regulations.

  [II. 	 DIG ignored documentation in the chans reviewed of the need for services, and of the
         authorizing physicians' knowledge of me patients for whom services were being
         authorized.

These DIG audit flaws arc more thoroughly addrcssed below.

I. 	 The auditors ignored the appropriateness of remedies other than disallowance fot alleged
     regu latory violations.

    010 detennined that the providers in question 'had violated State requirements. Ilowever, as
    dctailed below, the large majority o f such findings are based upon an overly literal reading
                                                                                                         Page 4 of7




                                                     ,
                                                     .>

     oflhe regulations, resulting in an interpretation and application oflhe requirements that was
     never intended by the Stale. Even had the conduct of these providers been violative of the
     regulations, the mechanism provided by the regulations for addressing violations would not
     have resulted in the payment lor these services being disallowed, under Ihe lerms of the
     same regulation that the 010 is purporting to enforce.

     O MI-Imainiains vari ous means of monitoring and enforcing provider compliance with
     prograllL slandards. Among these arc requiring that providers submit a plan of com.:c\ion
     ~ddressi ng progra m defi ciencies, increasing the frequenc y of program inspections, the
     imposition of fi nes and the limitation, suspension or revocation of a providcr's licensc.
     Secti on 593.8 of the regulati on in qu estion, Enforcement of Service Planning and
     Reimbursement Standards, makes this explicit for the program. This section specifically
     provides Ihat where OMH determines that a provider of service is not exercising due
     dili gence in complying with the State regulatory requirements penaining to this program,
     OMH will g ive notice of the deficiency to th e provider, and ma y also either rc(] ucst that the
     provider prepare a plan of correction, or OMI-! may pro'l(ide tcchnical ass istance. If the
     provider fails to prepare an acceptable plan of correction within a reasonable time. or if it
     refuses to pennit OMH to providc technical assistancc or effcctivcl y implement a plan of
     correction, then it will be dete rminoo to be in violati on of the program regulations. Such a
     detcrmination, as well as a failure to compl y wilh the tenus of the provider's operating
     certificate or with the provisio ns of any applicable statute, rule or regulation, subjects the
     prov ider to a possible fl!voea lion, suspension or limitation of the provider's o perating
     certifI cate, or th e imposition of a fine. It is only when a provider of scrviee seeks
     reimbursement in cxcess of that providcd for in Secti on 593.7, which sets out the program
     reim bursement standards, th at OMII would make a referral to the Departmcnt for the
     recover)' o f an overpayment.

     Thus, the OIG has issued a recommended disallowa nce based entirely upon State
     regulations. In so doing. however. it has chosen to ignore provisions of (he fl!gulation it is
     purporting to enforce. As is detailed below, the OIG then compounds this error by
     misinterpreting and misapplying these regulat ions, resulting in a determination of violations
     based upon behaviors that the State would have fo und 10 be compliant.

II. 	 O IG applied an innppropriate and overlv technical interpretation o f New York State's
      [lro..gram.a:!!.gula tions.\haUss.o.!l\[a.n:...\.9 the meaning and intent of those regulations.

    The dra ft OIG audit report relies on an overl y technical interpretati on of State regulations.
    OIG recommends a disallowance of$207,569,1 15 based upon a review ofa sample o f 100
    claims from a universe of 3 19,57 1 claims. O f the 100 claims sampled, OIG found that 69
    claims were so nawcd a~ to render such claims non·reim bursable. Ofthosc 69
    "noncom pliant" claims, 61 were found to violate the State's requirement for service
    reauth orizat io n, which states thai at the service p lan rev iew immediately preceding Ihe
    ex piration date orthe phys ician 's authorizmion, a summary of the review must be ~ubmilled
    to the phys ician, and that the physician may aut hori ze the services based upon the summary
    of the th ree mo nth review o r, if necessary, may request the complete casc record of the
    individual. For 45 of the 61 , OIG states that the provider d id not subrnitlhe review
                                                                                                        Page 5 of7




                                                  4
     summary to the physician. For the remaining 16 claims, DIG stales thai such summaries
     were provided, but the physician did not base his or her reauthorization upon them.

     As noted in the draft 01G audit report, the services in question are provided under the
     Medicaid rehabilitation option which authorizes states to furnish rehabilitative services
     recommended by a physician, nurse or other licensed practitioner orthe healing arts within
     their scope ofpraetice under Slate law. One of the major ways in which Federal
     requirements for rehabilitative services differ from those pertaining to other Medicaid
     services is that such services can be recommended by licensed practitioners other than
     physicians. This reflects the fact that the focus of rehabi litative services is primarily the
     restoration of function, rathcr ihan the medical treatment of illness.

     The services in question are provided to individuals residing in community residences for
     persons with serious mental illness. OMH, in designing program standards for this service,
     wanted to ensure that there "''as physician Involvement in the deterrninaiion of the need for
     services, and in periodic reauthorizations. The program standards, however, petmit service
     planning and service plan reviews 10 be conducted by "qualified mental health staff."
     Accordingly, the program design did not ensure that the physicians reauthorizing these
     services would be familiar with the status or progress of the individual receiving them.

     The intent of the requirement that the program supply thc physician with a summary of the
     service plan review, and the language stating thaI the physician may authorize additional
     services based upon that review, was to ensure that physicians not otherwise familiar with
     the individual would be provided with sufficient infonnation to make an infotmed clinical
    judgment. The requirement was not intend~ to requ ire that a physician who was fully
     fami liar with the clinical presentation of the individual as a result of being actively engaged
     in providing treatmcnt to him or her be given a document summarizing infotmation already
    known 10 the physician. Similarly, it was not intended to require that the physician base his
    or her recommendation on that summary, rather than his or her own informed clinical
    judgment.

III. 	 010 ignored documentation in the cham; reviewed of the need for services. and of the
       authorizing physicians' knowledge of the paticnts for wbom services were being authorized.

    The 010 auditors ignored documentation of the au thorizing physicians' knowledge of the
    patients for whom services were being authori ...ed. The auditors' own workpapcrs reflect
    the absurdity resulting from their interpretation of the regulations in question. Despite
    having ample documentation that the physicians providing the service reauthorizations in
    question were familiar with the clinical status and needs of the individuals as II result of the
    physicians' oym personal knowledge, the 010 repeatedly disallowed services based upon its
    readin g of a regulation intended to ensure Ihat such reaulhorizatio.ns be provided by
    infonned physicians because those physicians did not base the reauthorization on II
    summary prepared by others.

    In a quest ionnaire used by the 010 auditors, the physicians were asked whether they
    reauthorized services based upon a review of the summary of the three-month service plan
                                                                                                              Page 6 of7




                                                       5
      review, the actual service plan review or the complete case record, and to explain. In case
      after case, when the "no" box was marked, the cxphmation given was lhal the physician wa~
      personally familiar with lhe patient. For Ihc sake of brevity, not ull of these examples arc
      recited in Ihis document, although examples include Ihe following:

               • 	 "Dr. • saw. for a psychiatric assessment und medication management at the

                  knowledge   of.
                  Middletown Mental Health Center clinic. Dr. • based his reauthorization on
                                 and discussions with case manager ..." (Sample 6 1)

           • 	 "Dr. .     sees . OI1I:C a month or more oilen ifneeded in an O!!!)!alienl program for
                  medication management. When signing a rcauthori7.ation Dr. • uses his
                  knowledge orthe patient, initial psych evaluation and communications wit h statT
                  from Catholic Charities Syracusc." (Sample 62)

           • 	 " Dr. .      stated lhat he signs the reaulhuri7.ation form oased on his uffi.;e vi~its with
                  the patielll, knowledge of the patient, and discussions with staff (Clear View case.
                  manager and COPC social worker). I Ie added that he is very familiar wi th this
                  patient's history, based on regular eontilet with the patient (he has scen this putient
                  for year~)." (Sumplc 80)

     The above excerpts represent three examples of the cases Ihal were determined by the OIG
     uudilors to be noneompliun t wit h Ihe State's requiremenls, despite it being clear that the
     service reauthorization was made by ph)'sicians based upon an informed determination of
     clinic!ll need. Slate review of the OIG's !ludit workpapcrs showcd Ihal orthe 61 cases fou nd
     by lhe OIG to be noncompliant with this requirement, at least 58 reflected reauthorizations
     bilsed upon actual knowledge orthe patient's case by the physician. This honoring of rorm
     over substance, and thc rccommcndation or a disall()wance urthis magnitude based upon
     such a stilted misinterpretation and misapplication of the Stale's regulations, is unw<lrrante<l
     and exeessivc. Further. while it was impossible fo r Ihe State to determine from tilt:: auditors'
     no!es whether the rernuining three cases were also based upon such physicians' knowledge,
     the State will be rcv iewing all of the churts reviewed by OIG and resclVcs thc right to raise
     additional eonecrns and 10 introducc additio nal information us thc prncess proceeds.

Rcco nunen d.u ion #2:

The Department should work with OMH \0 implement guidance to physiciuns regarding Slllte
rcgulations on Ihe authorization of community residence rehabilitation services.

I~ es pons e   #2:

The Department will work with OMH to dissem inate any necessary guidance 10 physicians
regarding authorizations of community residence rehabilitutive services, although il is relevant to
note that OMH hus repealed thc specific section of the rcgu lation in question (i.e., NVCRR 593 .6
(g) and has udopted umended reguJutions that reflect the intent of OMII regarding medical
assistance JXlyments lor community rehabilitatio n sClVices, including physiciun authorizations
and reau thorizations. An cxplimation of the intent of the repea led ~ection orthe regUlation, as



Office of Inspector General NOle · The deleled text has been redacled because il is personall y
identifiable information.
                                                                                                 Page 7 of7




                                               6
well as a copy of the amended regulations, was previously provided to the O IG auditors during
their review.
